HHS/OIG - Audit,"Programmatic Review of OCS Grant #90EF0041 W.S.O.S. Community Action Commission, Inc., Fremont, Ohio,"(A-05-01-00080)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Programmatic Review of OCS Grant #90EF0041 W.S.O.S. Community Action
Commission, Inc., Fremont, Ohio," (A-05-01-00080)
August 22, 2001
Complete
Text of Report is available in PDF format (228 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This letter report provides the results of our programmatic review of discretionary
grant number #90EF0041, awarded to the W.S.O.S. Community Action Commission,
Inc. (W.S.O.S.).  This two-year grant is part of an on-going effort to
improve the water quality and sanitary wastewater treatment for low-income
rural areas.  The purpose of our review was to determine whether W.S.O.S.
met the objectives specified in the grant award.  We found that W.S.O.S.
did meet the grant objectives and, therefore, we make no recommendations for
improvement or change.